           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION




    IMPACT OF STATUTORY BENEFIT
     CONTINUATION ON DISABILITY
    INSURANCE BENEFIT PAYMENTS
            MADE DURING
        THE APPEALS PROCESS

     December 2006   A-07-05-15094




 AUDIT REPORT
                                    Mission
By conducting independent and objective audits, evaluations and investigations,
we inspire public confidence in the integrity and security of SSA’s programs and
operations and protect them against fraud, waste and abuse. We provide timely,
useful and reliable information and advice to Administration officials, Congress
and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
We strive for continual improvement in SSA’s programs, operations and
management by proactively seeking new ways to prevent and deter fraud, waste
and abuse. We commit to integrity and excellence by supporting an environment
that provides a valuable public service while encouraging employee development
and retention and fostering diversity and innovation.
                                               SOCIAL SECURITY
MEMORANDUM

Date:      December 21, 2006                                                                   Refer To:

To:        The Commissioner

From:      Inspector General

Subject:   Impact of Statutory Benefit Continuation on Disability Insurance Benefit Payments
           Made During the Appeals Process (A-07-05-15094)

           OBJECTIVE
           Our objective was to evaluate the financial impact on the Disability Insurance (DI) Trust
           Fund when beneficiaries continue to receive DI payments, while appealing a medical
           cessation decision. 1

           BACKGROUND

           Title II of the Social Security Act                        Table 1
           (Act) allows disabled individuals        Disabled Workers, Continuing Disability
           who are insured for DI benefits,                 Reviews, and Cessations
           have not reached retirement age,                                  2003         2004
           and are determined to be disabled    Disabled Workers (CY) 5,873,673 6,201,362
           according to Social Security         Full Medical CDRs (FY)     215,008      224,980
           Administration (SSA) regulations to CDR Cessations (FY)          25,662       25,727
           receive DI benefits. 2 DI benefits
                                                                             3
           are financed from the DI Trust Fund of the United States Treasury. At the end of
           Calendar Year (CY) 2004, there were over 6 million disabled workers receiving DI
           benefit payments (see Table 1).



           1
            The audit Impact of Statutory Benefit Continuation on Supplemental Security Income Payments Made
           During the Appeals Process (A-07-05-15095) issued May 10, 2006, projected that the Social Security
           Administration could have avoided overpayments of $105.8 million for Fiscal Years 2003 and 2004 if the
           processing time for Supplemental Security Income claims at the reconsideration and Administrative Law
           Judge levels of appeal was decreased to 60 and 90 days, respectively.
           2
            The Social Security Act § 223, et seq., 42 U.S.C. § 423 et seq. See also 20 C.F.R. §§ 404.130 through
           404.133.
           3
               The Social Security Act § 201(b), 42 U.S.C. § 401(b).
Page 2 - The Commissioner

Once SSA establishes that an individual is eligible for disability benefits under the DI
program, SSA turns its efforts toward ensuring only those who remain disabled continue
to receive benefits. Continuing disability reviews (CDR) are performed on DI
beneficiaries to assess whether individuals remain medically eligible for DI payments. 4
A decision to discontinue benefits is made when a CDR reveals that the beneficiary no
longer meets the medical requirements for disability benefits; these are referred to as
medical cessation decisions. 5 Medical cessation decisions are made by disability
examiners in the Office of Central Operations and State Disability Determination
Services (DDS), as well as by disability specialists in the program service centers. 6
During Fiscal Year (FY) 2004, over 200,000 full medical CDRs were conducted for DI
beneficiaries with nearly 26,000 beneficiaries receiving a cessation decision following
the CDR (see Table 1). See Appendix B for additional background information on
CDRs.

Once a decision has been made that an individual is no longer eligible for disability
benefits, SSA informs the beneficiary of its decision. Payments continue for 2 months
                7
after cessation. The beneficiary may appeal the decision within 60 days of the date he
or she receives notice that SSA has determined that the individual’s disability has
ceased, or any time thereafter, if good cause is shown for late filing. 8

The current appeals process has three administrative levels of review. First, the
                                                                           9
beneficiary can request that the DDS reconsider the cessation decision. Second, if the
individual is dissatisfied with the DDS decision at the reconsideration level, the
beneficiary may request a hearing before an Administrative Law Judge (ALJ) in the
                                              10
Office of Disability Adjudication and Review. Third, the beneficiary may appeal the
ALJ’s decision to the Appeals Council (AC). The AC may deny, dismiss, or grant the
request for review. If the AC grants the request for review, the AC either issues a
decision or remands the case back to an ALJ. 11
4
 Generally, the frequency of medical CDRs is dependent upon SSA’s assessment of the likelihood of
medical improvement. 20 C.F.R. § 404.1590(d).
5
    SSA, POMS, DI 28001.001.
6
    SSA, POMS, SM 00614.001.
7
    Id.
8
    SSA, POMS, GN 03101.010.
9
 Reconsideration hearings are held before a disability hearing officer who reviews the evidence
considered in making the initial decision and any other evidence received. Based on this evidence, a
decision is made.
10
   The ALJ considers the evidence that is in the file and any new evidence, provides an opportunity for a
hearing, applies the SSA disability standards, and issues a new decision, which affirms or reverses the
initial decision.
11
     SSA, POMS, GN 03101.001.
Page 3 - The Commissioner

Section 223(g) of the Act 12 provides the individual the option for benefit continuation
through the reconsideration and ALJ hearing levels of appeal in medical cessation
decisions. 13 The option to elect continued benefits also applies to auxiliaries receiving
benefits on the record of the primary disability beneficiary. 14 Benefit payments made
during the appeals process are considered overpayments if the cessation decision is
upheld. See Appendix C for the Scope and Methodology of our review.

RESULTS OF REVIEW
We estimate that SSA paid approximately $86.4 million in DI payments to beneficiaries
who received an appeals decision from an ALJ between October 1, 2002 and
September 30, 2004. 15 Of this amount, we project that about $43.9 million became
overpayments when an ALJ affirmed the decision that the beneficiary was no longer
eligible to receive DI benefits. These large overpayments were incurred because SSA’s
process for making decisions on medical cessation appeals is not as efficient as it could
be.

SECTION 223(g) OF THE ACT

Forty-seven percent of the beneficiaries in our population whose benefits were
continued as a result of Section 223(g) of
the Act received a continuance by an ALJ                      Chart 1
                                          16                 Population
(see Chart 1 and Appendix D, Table 1).
For these beneficiaries, the intent of the        Cessation
law—to help prevent financial hardship to            53%
beneficiaries who appeal a medical                                        Continuance
cessation decision—was achieved.                                             47%
However, for the remaining 53 percent of
the beneficiaries who received a cessation

12
  Section 223(g) was added to the Act as a temporary provision by Public Law 97-455 § 2, and was made
permanent by the Omnibus Budget Reconciliation Act of 1990, Public Law 101-508 § 5102.
13
   Payments are ceased 2 months after the DDS makes a disability cessation decision and the appeal
period is over, or in the month of a cessation decision by an ALJ, but they can be reinstated when a
request for appeal to the reconsideration or ALJ hearing level is filed and benefit continuation is requested
timely. Furthermore, payments are not continued if the individual is dissatisfied with the decision issued
by an ALJ and the case goes to the AC. However, if the AC remands the case back to an ALJ, benefits
can be reinstated. SSA, POMS, DI 12027.001 and DI 12027.020.
14
     SSA, POMS, DI 12027.007.
15
  This includes payments made to auxiliaries on the record of the disabled beneficiary. All remaining
dollar amounts in this report include amounts paid or overpayments attributable to both the disabled
beneficiary and auxiliaries on the record.
16
  A continuance means that it was determined the individual remains medically eligible to receive DI
benefits.
Page 4 - The Commissioner

decision on their appeal, we project the application of the law resulted in the
                                                                          17
beneficiaries being overpaid approximately $43.9 million (see Chart 1).

Section 223(g) of the Act was enacted in 1983 to protect DI beneficiaries from being
financially disadvantaged while problems in the disability decision and appeals process
were addressed—specifically, problems in the lack of uniformity of DDS and ALJ
decisions. At that time, approximately 65 percent of DDS medical cessation decisions
were reversed by an ALJ, which placed an undue financial burden on the majority of
claimants whose benefits were terminated as a result of a CDR. For the
6,571 beneficiaries in our population, the ALJ reversal rate for DI medical cessation
appeals was 47 percent. 18 Therefore, it appears there has been some improvement in
the uniformity of DDS and ALJ decisions, possibly due to SSA’s enhancements to the
disability determination process, such as process unification. 19

OVERPAYMENTS RESULTING FROM CESSATION DECISIONS

Of the projected $43.9 million in overpayments identified for our cessation population,
we project that only about
$3.6 million (8.3 percent) was                         Chart 2
collected, and approximately                 SSA's Collection Activity
$4.6 million (10.4 percent) is in                 45.7%
the process of being collected
through installment payments
(see Chart 2 and Appendix D,
          20
Table 2).                               10.4%                  13.2%
                                                                                     Collected
                                                        8.3%                         Collect by Installment
                                                                   22.3%
                                                                                     Undetermined
                                                                                     Collection Suspended
                                                                                     Waived




17
   A cessation means that the ALJ confirmed the DDS’ decision that the individual is no longer medically
eligible for DI benefits.
18
  An ALJ affirmed the medical cessation decision for 3,450 beneficiaries in our population and reversed
the medical cessation decision for 3,121 beneficiaries (see Appendix D).
19
  The goal of process unification is to achieve correct, similar results in similar disability cases at all
stages of the administrative review process.
20
  For the purposes of this report, we considered both collections by installment payments and DI check
adjustment to be collections by installment payments. Until the approximately $4.6 million is actually
collected, there remains the possibility that these monies will never be collected.
Page 5 - The Commissioner

Furthermore, we project that SSA has not yet determined what action to take on
approximately $20.1 million (45.7 percent) of the overpayments. We project that the
remaining $15.6 million (35.5 percent) in overpayments were waived or collection of the
overpayment was suspended.

Waived

We project that SSA waived approximately $9.8 million (22.3 percent) of the
overpayments identified in our population (see Chart 2 and Appendix D, Table 2).
When overpayments are waived the beneficiary is relieved from ever having to repay
the funds to SSA. Accordingly, the funds will never be returned to the DI Fund. SSA
grants overpayment waivers when the individual is not at fault for the overpayment and
recovery would:

          •   be against equity and good conscience or
          •
                                        21
              defeat the purpose of DI.

Collection Suspended

We project that collection was suspended for approximately $5.8 million (13.2 percent)
of the overpayments identified in our population (see Chart 2 and Appendix D, Table 2).
SSA, in certain situations, may suspend collection of an overpayment when repayment
cannot be arranged and civil suit is not appropriate. 22 Debt that is suspended remains
eligible for recovery from future benefits payable to the beneficiary. 23,24

LENGTH OF APPEAL

SSA’s process for making decisions on medical cessation appeals could be more
efficient to help reduce the amount of overpayments beneficiaries incur during the
appeals process. Specifically, SSA does not require medical cessation appeals to be
given processing priority at the reconsideration level, even though they involve benefit
outlays. Furthermore, although Hearing Office Chief ALJs are instructed to assign
                                                                                   25
medical cessation cases to ALJs immediately to avoid or minimize overpayments, the




21
     SSA, POMS, 02250.001.
22
     SSA, POMS, GN 02215.235 A.
23
     SSA, POMS, GN 02215.250 A.
24
  SSA does not maintain statistics that isolate the dollar value of collections attributable to DI debt in
which collection was suspended.
25
     HALLEX I-2-1-55.
Page 6 - The Commissioner

results of our review show that these cases need to be expedited more than the
instructions currently require. 26

For beneficiaries in our sample who ultimately received a cessation decision from an
ALJ, the overall average processing time was 648 days from the date the beneficiary
requested a reconsideration to the date an ALJ made a decision. 27 A process with
such a lengthy average processing time is not financially efficient for claimants who are
receiving benefit payments.

Since reconsideration and ALJ appeals are not being processed timely and they involve
benefit outlays, large overpayments are incurred. Given that medical cessation appeals
often result in large overpayments, they should not be processed in the same manner
as those cases that are not receiving payments. Therefore, to the extent possible,
appeals that involve benefit payments should be processed separately from those that
do not involve payments to avoid or minimize overpayments.

Of the projected $43.9 million in                                                             Chart 3
overpayments incurred by individuals                                                          Savings
                                                                             $33
who were determined to be no longer
                                                                             $32
eligible for DI payments, we project that
                                                     Dollars (in millions)




                                                                             $31
overpayments of approximately                                                $30
$27.8 million to $32.2 million could                                         $29
have been avoided if SSA would have                                                 $32.2
                                                                             $28
                                                                                                $30.0
completed the entire appeals process                                         $27                          $27.8
(both reconsideration and ALJ hearing)                                       $26
within 135 to 195 days (see Chart 3                                          $25

and Appendix D, Table 3). 28 These                                                 135 Days   165 Days   195 Days

appeals times are based on SSA
26
  The average processing time for ALJ hearings resulting in a cessation decision in our sample was
411 days while the average processing time for all cases involving ALJ hearings was 371 days in FY 2004.
We recognize that beneficiaries can increase the processing time for ALJ decisions by delaying the
hearing, which will ultimately result in a larger overpayment. However, we did not consider this
characteristic during our audit to determine how frequently this occurs, as it was outside the scope of our
audit.
27
  The shortest appeal took a total of 187 days while the longest appeal took a total of 1,476 days from the
date the beneficiary requested reconsideration to the date an ALJ made a decision on the medical
cessation hearing. The total median processing time was 607 days. The median processing time
represents the middle of the distribution of the total number of days for the beneficiaries in our sample.
Half of the beneficiaries’ appeals took 607 days or more while half of the beneficiaries’ appeals took
607 days or less. Conversely, average processing time represents the sum of the total processing time
for the beneficiaries in our sample, divided by the number of beneficiaries.
28
  We were unable to determine the amount of overpayments attributable to each of the reconsideration
and ALJ hearing levels of appeal due to our methodology for obtaining overpayment information. We
reviewed the overpayment amounts as displayed on the Master Beneficiary Record (MBR) for medical
cessations. The MBR only displays the total overpayment amount and the date the overpayment was
posted, but does not identify the specific time periods when the overpayment was incurred.
Page 7 - The Commissioner

completing reconsiderations for medical cessations within 60 days 29 and ALJ hearings
for medical cessations within 60 to 120 days 30 and allowing 15 days for beneficiaries to
request benefit continuation during an appeal after reconsideration. 31

The Commissioner’s Disability Service Improvement process proposes enhancements
to the disability determination process. However, the new process, as it was presented
in the Federal Register, does not change SSA’s process for medical cessation
appeals. 32

CONCLUSION AND RECOMMENDATION

We found that 53 percent of individuals in our population, who appealed a medical
cessation decision and continued to receive payments throughout the appeals process,
were overpaid. The overpayments were increased because SSA’s process for deciding
medical cessation appeals is not financially efficient. Medical cessation appeals should
not be processed in the same manner as cases not receiving payments. Therefore, to
the extent possible, appeals that involve benefit payments should be processed
separately from those that do not involve payments to avoid or minimize overpayments.

The President’s Management Agenda introduced the initiative of improved financial
performance throughout Government agencies. 33 By making SSA’s process for
medical cessation determinations more efficient it would be better aligned with the
President’s vision. If SSA would develop a process for making decisions on medical
cessation appeals in a timely manner, financial performance of the DI program could be
greatly increased. For example, if SSA decreased the processing time on medical
cessation appeals (both reconsiderations and ALJ hearings) to 165 days, we project



29
  Most of the evidence needed for a reconsideration should have been obtained during the CDR process,
unless additional evidence is needed for the reconsideration decision. Therefore, if SSA’s business
process allowed these cases to be processed immediately upon receipt, little additional evidence would
need to be obtained and it would be reasonable to expect reconsideration decisions on medical
cessations within 60 days.
30
  Because the claimant is awaiting a hearing before an ALJ, and depending on the length of time that has
elapsed since the acquisition of evidence obtained during the CDR, it may not be reasonable to expect an
ALJ appeal decision in less than 60 days. However, if SSA’s business process allowed for medical
cessation appeals to be processed immediately upon receipt at the hearing office, less additional evidence
would need to be obtained for the ALJ hearing and it would be reasonable to expect the decision within
60 to 120 days.
31
     SSA, POMS, DI 12027.008.
32
 Administrative Review Process for Adjudicating Initial Disability Claims, Federal Register, Volume 71,
Number 62 (16424-16462) March 31, 2006.
33
     See www.whitehouse.gov/omb/budget.
Page 8 - The Commissioner

overpayments of approximately $30 million could have been avoided for FY 2003 and
2004. Based on the average of these 2 years, we estimate SSA could have avoided
about an additional $15 million in overpayments in FY 2005.

The President’s Management Agenda also emphasizes the Government’s need to
reform its operations in how it conducts business and how it defines business. SSA
owes it to the American people to ensure that the resources entrusted to the Federal
Government are well managed and wisely used. It is not only beneficial, but necessary
for SSA to increase performance and citizen satisfaction by expediting cases that
receive payments during the appeals process.

To operate more efficiently, SSA needs to develop a new business process for cases in
which benefits are being continued throughout the appeals process. We recommend
that SSA enhance the business process to allow more timely decisions on medical
cessation appeals.

AGENCY COMMENTS

SSA agreed with our recommendation. The full text of SSA’s comments is included in
Appendix E.




                                              Patrick P. O’Carroll, Jr.
                                     Appendices
APPENDIX A – Acronyms

APPENDIX B – Background

APPENDIX C – Scope and Methodology

APPENDIX D – Population and Sample Results

APPENDIX E – Agency Comments

APPENDIX F – OIG Contacts and Staff Acknowledgments
                                                        Appendix A

Acronyms
AC       Appeals Council
ALJ      Administrative Law Judge
CDR      Continuing Disability Review
C.F.R.   Code of Federal Regulations
CY       Calendar Year
DDS      Disability Determination Services
DI       Disability Insurance
FY       Fiscal Year
HALLEX   Hearings, Appeals, and Litigation Law Manual
MBR      Master Beneficiary Record
ODAR     Office of Disability Adjudication and Review
POMS     Program Operations Manual System
SSA      Social Security Administration
SSI      Supplemental Security Income
U.S.C.   United States Code
                                                                         Appendix B

Background on Continuing Disability Reviews
The Social Security Administration (SSA) is required to conduct periodic continuing
disability reviews (CDR) on individuals who receive Disability Insurance (DI) benefits.
The purpose of CDRs is to assess whether individuals remain medically eligible for DI
benefits. CDRs are conducted at various intervals. Specifically:

      •   Individuals with a significant potential for medical improvement are selected for
          review within the first 6 to 18 months of eligibility;
      •   Individuals with a lower probability of medical improvement are reviewed every
          3 years; and
      •   Individuals with no expectation of medical improvement are scheduled for review
                         1
          every 7 years.

SSA is required to report to Congress the number of CDRs performed each year to
meet legislative and regulatory requirements:

      •   Title II of the Social Security Act requires SSA to report to Congress annually on
                                                                2
          the results of periodic CDRs under the DI program.
      •   Title XVI of the Social Security Act requires SSA to report on the number of
          Supplemental Security Income (SSI) CDRs and redeterminations in an annual
          report on the SSI program. 3

Processing CDRs

SSA conducts CDRs using one of two methods:

      •   full medical reviews; or
      •   mailers (questionnaires).




1
    20 C.F.R. § 404.1590(d).
2
    The Social Security Act § 221(i), 42 U.S.C. § 421(i).
3
    The Social Security Act § 1637(a)(6), 42 U.S.C. § 1383f(a)(6).



                                                       B-1
Full Medical Reviews

Full medical reviews are primarily conducted by Disability Determination Services (DDS)
located in each State and the District of Columbia in accordance with Federal
            4
regulations. SSA’s field offices send CDR cases to the DDSs throughout the year for
processing. SSA initiates these CDRs for various reasons, including:

      •   routine scheduling of a medical review (This is sent out as a “direct release.”);
      •   responses to a CDR mailer indicating that the individual’s medical condition may
          have improved;
      •   receipt of information that an individual’s condition has improved and/or the
          individual has been working (This is sent out as a “work CDR.”); or
      •   testing the reliability of SSA’s systems and/or verifying assumptions through a
          full medical review.

SSA’s folder processing centers send the case folder (which contains background and
medical information on the individual) selected for a full medical CDR to the appropriate
SSA field office for development. Field office personnel review the information in the
case folder, interview the individual, and update pertinent facts in the folder prior to
sending the case to the DDS for a full medical review. DDS medical examiners, using
information in the case folder, determine if additional tests are necessary. Based on
this information, a decision is made as to whether the individual is still disabled.

CDR Mailers (Questionnaires)

CDR mailers are questionnaires sent to disabled individuals asking whether the
beneficiary has been employed, attended school or training, been told by a doctor
whether he or she can work, has gone to a doctor or clinic for treatment, or has been
hospitalized or had surgery. 5 If the answers to the questions indicate the individual’s
condition may have improved, the case is referred to a DDS office for a full medical
review to determine whether the individual is still disabled. 6




4
    20 C.F.R. § 404.1601 et seq.
5
  Normally, only individuals determined to have a low likelihood of medical improvement are sent mailers.
Cases that are profiled as having a mid-range to high likelihood of medical improvement are scheduled for
full medical CDRs rather than mailers (questionnaires).
6
  CDR mailers were not included in our review because the review focused on medical CDRs in which the
initial DDS decision was a medical cessation. If SSA sends out a mailer, and based on the information
supplied in the response, it feels it is possible the beneficiary’s disability has ceased, then it will open the
case for a full medical review.



                                                      B-2
                                                                              Appendix C

Scope and Methodology
To accomplish our objective we:

    •   Reviewed applicable Federal laws and regulations, pertinent parts of the Social
        Security Administration’s Program Operations Manual System, and other criteria
        relevant to continuing disability reviews (CDR), appeals, and overpayments.

    •   Reviewed prior Office of the Inspector General audit reports related to
        overpayments and CDRs.

    •   Interviewed Social Security Administration (SSA) staff from the Office of
        Disability Programs, Office of Disability Determinations, and the Office of
        Disability Adjudication and Review (ODAR) to obtain an understanding of the (1)
        CDR process, (2) appeals process for disability cessations, and (3) treatment of
        overpayments.

    •   Obtained a file from the Office of Disability and Income Security Programs of all
        6,836 individuals who received an Administrative Law Judge (ALJ) decision for
        medical cessation between October 1, 2002, and September 30, 2004. From
        this file, we identified a population of 6,571 individuals who continued receiving
        Disability Insurance benefits while appealing SSA’s CDR decision that they were
        no longer disabled.

    •   Separated the population of 6,571 into 2 groups:

           •   3,121 beneficiaries (47 percent) who received a continuation at the ALJ
               level of appeal and
           •   3,450 beneficiaries (53 percent) whose cessation was affirmed at the ALJ
               level of appeal.

    •   Selected a random sample of 250 cases from each of the 2 groups for a total
        sample size of 500 cases.

    •   Analyzed beneficiary information available on SSA’s electronic systems—
        including the Master Beneficiary Record (MBR), 1 the Payment History Update
        System, and the ODAR query—and projected our results to the population.

1
 We relied on the overpayment amount that was posted by SSA and displayed on the MBR; therefore, we
did not determine if the posted overpayments were accurate.




                                                C-1
We conducted our audit in Kansas City, Missouri between February 2005 and
July 2006. We determined that the data used for this audit was sufficiently reliable to
meet our audit objective. The entity audited was ODAR and SSA field offices and
program service centers under the Office of Central Operations. We conducted our
audit in accordance with generally accepted government auditing standards.




                                           C-2
                                                                                            Appendix D

Population and Sample Results
Of the 6,836 beneficiaries who received an Administrative Law Judge (ALJ) decision for
medical cessation between October 1, 2002 and September 30, 2004, we identified a
population of 6,571 beneficiaries who continued to receive Disability Insurance benefit
payments during the appeals process. An ALJ affirmed the cessation decision for
3,450 beneficiaries and continued benefits for 3,121 beneficiaries.

Our analysis of 250 cases where benefits were ceased identified 216 beneficiaries who,
along with any auxiliaries, received payments during the appeals process totaling
approximately $3.2 million that were subsequently considered overpayments. In
addition, we conducted analysis on the overpayments to determine what the Social
Security Administration’s (SSA) recovery activities were for each case. Our analysis of
250 cases allowed to continue to receive benefits identified 221 beneficiaries who,
along with any auxiliaries, received payments during the appeals process totaling
approximately $3.4 million. The following tables reflect the sample results and
projections based on our audit. 1

                                        Table 1: Population and Sample Size
                                                  Continuance          Cessation           Total
               Population size                                 3,121            3,450              6,571
               Percent of total population                      47%                53%             100%
               Sample size                                      250                250              500
                                                   Number of Cases
               Cases Identified in Sample                       221                216              437
               Point Estimate                                  2,759            2,981              5,740
               Lower Limit – Quantity                          2,643            2,845
               Upper Limit – Quantity                          2,854            3,095
                                               Associated Dollar Amount
                                                                                       2
               Payments Identified in Sample            $ 3,404,294       $3,179,186        $6,583,480
               Point Estimate                          $42,499,208        $43,872,771      $86,371,979
               Projection Lower Limit                  $38,939,967        $39,405,527
               Projection Upper Limit                  $46,058,449        $48,340,014




1
    All projections in the following tables were calculated at the 90-percent confidence level.
2
  Approximately $350,000 (11.1 percent) of this amount was payments made to beneficiaries who
received an ALJ decision in our timeframe, but has since re-appealed the decision. Since these cases are
still in appeal, the overpayment will be reversed if the final decision is favorable.



                                                         D-1
                                        Table 2: Overpayment Recovery Activities

                                               Collection                      Collection
                                   Collected   In Process         Waived       Suspended     Undetermined
           Identified in                                                                                    3
                                    $263,912     $331,988          $710,177       $419,500     $1,453,609
           Sample
           Percent of
                    4,5                 8.3%        10.4%             22.3%         13.2%           45.7%
           Sample
           Point Estimate      $3,641,982       $4,581,431        $9,800,448    $5,789,105     $20,059,805
           Projection
                               $2,660,771       $2,945,440        $7,260,983    $4,165,788     $16,456,367
           Lower Limit
           Projection
                               $4,623,193       $6,217,421    $12,339,914       $7,412,422     $23,663,243
           Upper Limit




                                                    Table 3: Savings
                                                   Reconsideration and ALJ Appeal Complete in:
                                                 135 Days               165 Days             195 Days
           Identified in Sample                     $2,335,233            $2,173,784            $2,017,251
                               4
           Percent of Sample                             73.5%                  68.4%               63.5%
           Point Estimate                          $32,226,211             $29,998,215         $27,838,069
           Projection Lower Limit                  $28,416,449             $26,325,865         $24,303,734
           Projection Upper Limit                  $36,035,973             $33,670,565         $31,372,404




3
 Approximately $37,000 (2.6 percent) of this amount are payments that SSA has not recognized as an
overpayment due to appeal proceedings and input errors. Until there is action taken to assess the
overpayment, SSA will not attempt to collect the funds.
4
  This is a percentage of the total overpayments for cessation decisions identified in the sample
($3,179,186).
5
    Percentages do not add to 100 percent due to rounding.



                                                            D-2
                  Appendix E

Agency Comments
                                        SOCIAL SECURITY

MEMORANDUM


Date:      December 11, 2006                                                    Refer To:   S1J-3

To:        Patrick P. O'Carroll, Jr.
           Inspector General

From:      Larry W. Dye /s/
           Chief of Staff

Subject:   Office of the Inspector General (OIG) Draft Report, "Impact of Statutory Benefit Continuation
           on Disability Insurance Benefit Payments Made During the Appeals Process" (A-07-05-15094)
            -- INFORMATION


           We appreciate OIG’s efforts in conducting this review. Our comments on the draft report content
           and recommendations are attached.

           Let me know if we can be of further assistance. Staff inquiries may be directed to
           Ms. Candace Skurnik, Director, Audit Management and Liaison Staff, on extension 54636.

           Attachment:
           SSA Response




                                                         E-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL (OIG) DRAFT
REPORT, "IMPACT OF STATUTORY BENEFIT CONTINUATION ON DISABILITY
INSURANCE BENEFIT PAYMENTS MADE DURING THE APPEALS PROCESS" (A-
07-05-15094) -- INFORMATION

Thank you for the opportunity to review and comment on the draft report.

We have reservations about the fact that the report considers only the financial aspect of the
targeted caseload. We disagree with the general conclusion that statutory benefit continuation
cases should be processed separately from cases for claimants who are not in pay status, inferring
that the former should receive priority handling. Financial efficiency is not the single goal of the
Social Security programs, especially when it comes to disabled individuals. We have a duty to
serve all citizens in a timely and efficient manner. We also have a duty to follow the
requirements of law as set forth in statutes, Agency regulations and Federal court decisions,
which may dictate priorities that are at odds with financial efficiency considerations alone. Thus,
two of our top goals are to: (1) deliver high-quality, citizen-centered service in a timely and
efficient manner; and (2) ensure superior stewardship of Social Security programs and resources.
Although it is important to protect the trust fund, SSA is also directed by statute and Agency
directives to prioritize the processing of cases based on other factors that are not so easily
measured. These cases include, for example, claimants who are terminally ill, in dire need,
homeless, or cases that come under a time-limited court remand.

On page 6, the draft report states, "SSA does not require medical cessation appeals to be given
processing priority at the reconsideration level." This comment is difficult to understand since
the reconsideration process for continuing disability reviews is completely different from that for
initial claims. Furthermore, it is unrealistic to suggest that reconsiderations of medical cessations
can be completed within 60 days or that hearing decisions by an Administrative Law Judge (ALJ)
on such cases can be completed within 60 to 120 days. With regard to reconsiderations, it
appears from footnote 29 (page 7) that the report has overlooked the fact that a beneficiary who
requests reconsideration of a medical cessation must be offered the opportunity for a face-to-face
evidentiary hearing with a disability hearing officer employed by an adjudicatory unit other than
the one that made the decision being appealed (20 C.F.R. §404.914ff). Scheduling, sending the
required notice at least 20 days before the hearing, and holding an evidentiary hearing only adds
time to a process where initial disability decisions currently average over 90 days to process. It is
also incorrect to suggest in footnotes 29 and 30 (page 7) that reconsiderations and ALJ hearings
on medical cessations primarily consist of a reexamination of existing evidence.

As for ALJ hearings on medical cessations, this report offers no basis for the assumption that
such hearing decisions currently can be successfully completed within 60 to 120 days. SSA has a
current pending workload of 720,000 cases and the lowest staffing ratios in the Agency’s history
of appeals work. Unless SSA hires additional ALJs or senior attorneys, hearings offices would
have to pull existing resources from initial claims hearings to handle disability cessation
hearings. While this would achieve the goal of processing cessation appeals more timely, it
would exacerbate the problem of people waiting an inordinate amount of time to get a decision
on their initial claim. We do not believe that we should redirect resources to making timely


                                                E-2
                                                 -
cessation appeal decisions at the expense of making timely decisions on initial claims appeals.
We have to balance both of these processes.

We also believe the report significantly underestimates the recovery of overpayments. The
report's estimate of overpayment recovery begins at a time not far removed from the final
cessation decision. However, recovery increases with the passage of time. Further, the report
implies that suspended recovery effectively renders the overpayment unrecoverable. Yet, if a
terminated disabled-worker beneficiary later becomes a retirement beneficiary, the overpayment
would be withheld from those later benefit payments.

SSA is committed to fairly serving all facets of the public by providing accurate and timely
disability decisions, continuing to process all non-disability cases, and protecting the trust fund,
in keeping with the Agency’s overall mission to advance the economic security of the nation’s
citizens through compassionate and vigilant leadership.

Our response to the report's recommendation is provided below.

Recommendation

SSA [should] enhance the business process to allow more timely decisions on medical cessation
appeals.

Response:

We agree. Improvements to the timely processing of medical cessation cases involving benefit
continuation should be done. However, in making such improvements, consideration should be
given to current staffing levels and the ability to maintain the timely processing of other priority
workloads. A balanced approach in managing all workloads with an eye on receipt patterns is
important while making enhancements to improve the processing of medical cessation appeals.
Further, current backlogs of medical cessation hearing cases may have to be reduced before any
improvements are realized.

Accordingly, we will provide additional guidance and direction to our managers to: identify
statutory benefit continuation cases upon receipt in the hearing office (HO); use management
information that enables managers to track benefit continuation cases; provide procedures, to the
extent possible, for accelerated movement within the HO; and alert the appropriate component to
cease benefits when an affirmation is issued.




                                                 E-3
                                                  -
                                                                       Appendix F

OIG Contacts and Staff Acknowledgments
OIG Contacts

   Mark Bailey, Director, Kansas City Audit Division (816) 936-5591

   Shannon Agee, Audit Manager (816) 936-5590

Acknowledgments

In addition to those named above:

   Tonya Coffelt, Auditor-In-Charge

   Ken Bennett, IT Specialist

For additional copies of this report, please visit our web site at www.ssa.gov/oig or
contact the Office of the Inspector General’s Public Affairs Specialist at (410) 965-3218.
Refer to Common Identification Number A-07-05-15094.
                           DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Subcommittee on Human Resources
Chairman and Ranking Minority Member, Committee on Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Government Reform and
Oversight
Chairman and Ranking Minority Member, Committee on Governmental Affairs
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security and Family
Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
               Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of our Office of Investigations (OI),
Office of Audit (OA), Office of the Chief Counsel to the Inspector General (OCCIG), and Office
of Resource Management (ORM). To ensure compliance with policies and procedures, internal
controls, and professional standards, we also have a comprehensive Professional Responsibility
and Quality Assurance program.
                                         Office of Audit
OA conducts and/or supervises financial and performance audits of the Social Security
Administration’s (SSA) programs and operations and makes recommendations to ensure program
objectives are achieved effectively and efficiently. Financial audits assess whether SSA’s
financial statements fairly present SSA’s financial position, results of operations, and cash flow.
Performance audits review the economy, efficiency, and effectiveness of SSA’s programs and
operations. OA also conducts short-term management and program evaluations and projects on
issues of concern to SSA, Congress, and the general public.


                                    Office of Investigations
OI conducts and coordinates investigative activity related to fraud, waste, abuse, and
mismanagement in SSA programs and operations. This includes wrongdoing by applicants,
beneficiaries, contractors, third parties, or SSA employees performing their official duties. This
office serves as OIG liaison to the Department of Justice on all matters relating to the
investigations of SSA programs and personnel. OI also conducts joint investigations with other
Federal, State, and local law enforcement agencies.


                   Office of the Chief Counsel to the Inspector General
OCCIG provides independent legal advice and counsel to the IG on various matters, including
statutes, regulations, legislation, and policy directives. OCCIG also advises the IG on
investigative procedures and techniques, as well as on legal implications and conclusions to be
drawn from audit and investigative material. Finally, OCCIG administers the Civil Monetary
Penalty program.
                              Office of Resource Management
ORM supports OIG by providing information resource management and systems security. ORM
also coordinates OIG’s budget, procurement, telecommunications, facilities, and human
resources. In addition, ORM is the focal point for OIG’s strategic planning function and the
development and implementation of performance measures required by the Government
Performance and Results Act of 1993.
